     Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy



                 Before the

Subcommittee on Investigations and Oversight


Committee on Science, Space, and Technology

       U.S. House of Representatives




                                 FOR RELEASE ON DELIVERY
                                                 10:00 AM
                                          November 30, 2011
Mr. Chairman and Members of the Subcommittee:


I appreciate the opportunity to testify today at your request on the work of the Office of Inspector
General (OIG) concerning the Department of Energy's (Department) activities related to the
American Recovery and Reinvestment Act of 2009 (Recovery Act). The intent of the Recovery
Act was to quickly stimulate the economy, create jobs and, in the case of the Department, help
transform the agency’s mission. All of this was to be achieved in an atmosphere of
unprecedented accountability and transparency.


The Department’s implementation of the Recovery Act has been an important topic for my office
and I have testified several times on the Department’s progress. On March 19, 2009, shortly
after enactment, I testified before this Subcommittee about Recovery Act funding accountability
and transparency. On March 17, 2011, I testified before the House Subcommittee on Oversight
and Investigations, Committee on Energy and Commerce on oversight of the Department’s
Recovery Act spending. Most recently, on November 2, 2011, I testified before the House
Subcommittee on Regulatory Affairs, Stimulus Oversight, and Government Spending,
Committee on Oversight and Government Reform on aspects of the Department’s use of
Recovery Act funding to advance green energy development. My testimony today closely
parallels my November 2, 2011, statement.


Recovery Act Funding


The Department received $35.2 billion in Recovery Act funding for various initiatives, eclipsing
its Fiscal Year (FY) 2011 budget of about $27 billion. Some existing Departmental programs
received dramatic increases in funding. For example, the Weatherization Program received
$5 billion in Recovery Act funding, a more than 10-fold increase from its FY 2009 budget of
$450 million. In addition, Recovery Act funds were used to create essentially new Departmental
efforts, such as the Energy Efficiency and Conservation Block Grant Program, which received
$3.2 billion in funding.
Recovery Act funding also allowed the Department to drastically expand its Loan Guarantee
Program for certain renewable energy systems. With this expanded authority, the Department
estimated that it could guarantee up to $71 billion in loans. This was in addition to over
$6 billion in borrowing authority split evenly between the Bonneville and the Western Area
Power Administrations to modernize and build transmission infrastructure.


Since the enactment of the Recovery Act, the OIG has:
   •    Issued 70 audit, inspection, and investigative reports covering all major program
        activities (attached to this testimony is a complete listing of the OIG's Recovery Act
        reports);
   •    Initiated a number of Recovery Act-related criminal investigations; and,
   •    Conducted nearly 300 fraud awareness briefings for over 15,700 Federal, contractor,
        state, and other officials.


Overall Observations


As I have previously testified, while there has been significant progress, we found that the effort
by the Department to use Recovery Act funds to stimulate the economy was more challenging
than many had originally envisioned. Many Departmental programs required extensive advance
planning, organizational enhancements, additional staffing, and training at the Federal, state, and
local levels. A fairly consistent pattern of delays existed in the pace at which Recovery Act
funds had been spent by grant and other financial assistance recipients. To place this in context,
according to the Department's own records, as of November 18, 2011, about 43 percent of its
Recovery Act funds had not been spent, largely by recipients such as state and local
governments. The chart on the following page details Recovery Act funding by major program
area.




                                                 2
                               Recovery Act Funding ($ million)
   Program Office                                Authorized Obligated                 Spent
   Energy Efficiency and Renewable Energy            $16,666    $16,655                $10,314
   Environmental Management                            5,989      5,988                  5,450
   Electricity Delivery and Energy Reliability         4,488      4,487                  2,019
   Fossil Energy                                       3,379      3,379                    441
   Loan Guarantee Programs                             2,470      1,918                    434
   Science                                             1,669      1,669                  1,204
   Advanced Research Projects Agency–Energy              387        384                    184
   Departmental Administration                           144        115                     88
   Western Area Power Administration                       10         9                      7
   Energy Information Administration                        8         8                      8
   Total                                             $35,210    $34,612                $20,149


In addition to concerns regarding the pace of expenditures, our reviews identified performance
issues that affected the Department's ability to meet its Recovery Act goals. For example, our
most recent work showed that:


   •   There were quality problems in some of the work done as part of the Weatherization
       Program;
   •   The Loan Guarantee Program had not properly documented and, as such, could not
       always readily demonstrate how it resolved or mitigated relevant risks prior to granting
       loan guarantees;
   •   ARPA-E had not instituted a number of policies and procedures in areas such as
       monitoring and oversight of awardees; termination of non-performing awards;
       technology transfer and outreach; and invoice review; and,
   •   Western Area Power Administration had not implemented the necessary safeguards to
       ensure a successful outcome for its commitment of $161 million to finance the
       construction of a transmission line between Great Falls, Montana and Alberta, Canada.
       At the time of our review, this project was overrun by an estimated $70 million and was
       nearly two years behind schedule.


Regarding the Office of Science, we found that the majority of the $1.6 billion it received in
Recovery Act funding was used to accelerate ongoing projects by purchasing equipment and
completing construction projects, most of which were in process prior to the Recovery Act’s

                                                 3
enactment. To date, we have issued seven reports on the Office of Science’s use of Recovery
Act funds.


In contrast to the previously discussed issues, we found that the Office of Science and its
laboratory system generally complied with Recovery Act requirements, expended funds in a
timely manner, and employed sound project management practices. However, in one case, we
found that Lawrence Berkeley National Laboratory planned to use $2.6 million in Recovery Act
funds for an infrastructure project for which there was no current demand. After we brought this
matter to the attention of management, the Department elected not to fund that particular facility.


Recovery Act Investigations


The Office of Inspector General has initiated a number of investigations associated with
Recovery Act activities. These involve various schemes, including the submission of false
information, claims for unallowable or unauthorized expenses, and other improper uses of
Recovery Act funds. To date, our Recovery Act-related investigations have resulted in over
$2.3 million in monetary recoveries as well as six criminal prosecutions.


Recovery Act Implementation and Performance Observations


The Recovery Act established challenging goals for the Department. We noted during our work
that there was what we considered to be an intense effort to implement and execute the various
aspects of the Department's Recovery Act responsibilities. These efforts notwithstanding, we
had a number of overarching observations about the Department's implementation of the
Recovery Act. These observations, which I have described in prior testimony, include:


   1. The pressure of achieving expeditious program implementation and execution (and doing
       so with great emphasis on transparency and accountability) placed an enormous strain on
       the Department's personnel and infrastructure.
   2. The challenges associated with the Department's Recovery Act implementation efforts
       were complicated by the nature of the bureaucracy in which it operates, specifically the

                                                 4
       diverse, complex, and often asymmetrical set of stakeholders, which play an integral role
       in this process. This includes literally thousands of state and local jurisdictions,
       community action organizations in every state and territory, universities and colleges,
       contractors, and other private sector entities.
   3. The concept of "shovel ready" projects was not realized.
   4. The Federal, state and local government infrastructures were, simply put, overwhelmed.
       In several states, the very personnel who were charged with implementing the Recovery
       Act's provisions had been furloughed due to economic situations. Ironically, this delayed
       timely allocation and expenditures of funds intended to boost the U.S. economy and
       create jobs.
   5. The pace of actual expenditures was significantly slowed because of the time needed to
       understand and address specific requirements of the Recovery Act.
   6. Recipients expressed their concern with what they described as overly complex and
       burdensome reporting requirements.


In summary, a combination of massive funding, high expectations, and inadequate infrastructure
resulted, at times, in less than optimal performance.


Path Forward


Given the significant amount of funds that remain to be spent, we have ongoing and planned
reviews of Recovery Act implementation in a number of high-risk areas. Our investigative
efforts also continue.


Additionally, we have used the body of our work, including Recovery Act audits, inspections
and investigations, to identify a series of cost reduction and efficiency enhancement actions for
consideration by Department management. These are provided in our recently issued report on
"Management Challenges at the Department of Energy – Fiscal Year 2012" (DOE/IG-0858,
November 10, 2011).




                                                  5
Finally, we are refining our observations on the Department's implementation of the Recovery
Act and are drafting a report to highlight other lessons learned in the areas of risk management
practices; financial management, accounting and reporting; human capital management;
regulatory compliance; and delivery of public services. We are hopeful that the Department's
decision makers and others with an interest in these matters will consider these lessons learned in
the management of future programs and projects.


Mr. Chairman, this concludes my statement and I would be pleased to answer any questions that
the Subcommittee may have.




.




                                                6
                                                                            Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports
    Title                                         Report Number    Date Issued
1. The State of Nevada’s Implementation of the    OAS-RA-12-02     2011-11-09
    Energy Efficiency and Conservation Block
    Grant Program
2. Western Area Power Administration’s            OAS-RA-12-01     2011-11-04
    Control and Administration of American
    Recovery and Reinvestment Act Borrowing
    Authority
3. Action for a Better Community, Inc. –          OAS-RA-11-21     2011-09-30
    Weatherization Assistance Program Funds
    Provided by the American Recovery and
    Reinvestment Act of 2009
4. People’s Equal Action and Community            OAS-RA-11-20     2011-09-30
    Effort, Inc. – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
5. The 12 GeV CEBAF Upgrade Project at            OAS-RA-L-11-13   2011-09-30
    Thomas Jefferson National Accelerator
    Facility
6. Cuyahoga County of Ohio Department of          OAS-RA-11-19     2011-09-29
    Development – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
7. Community Action Partnership of the Greater    OAS-RA-11-18     2011-09-29
    Dayton Area – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
8. Implementation of the Recovery Act at the      OAS-RA-L-11-12   2011-09-29
    Savannah River Site
9. The Department of Energy’s Energy              OAS-RA-L-11-11   2011-09-23
    Efficiency and Conservation Block Grant
    Program Funded under the American
    Recovery and Reinvestment Act for the State
    of Pennsylvania
10. The Department of Energy’s Weatherization     OAS-RA-11-17     2011-09-19
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Tennessee
11. Management Alert on The Status of Energy      OAS-RA-11-16     2011-09-01
    Efficiency and Conservation Block Grant
    Recipients’ Obligations




                                            7
                                                                            Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports
12. The Department of Energy’s Weatherization     OAS-RA-11-14     2011-08-25
    Assistance Program Funded under the
    American Recovery and Reinvestment Act
    for the Commonwealth of Virginia
13. Los Alamos National Laboratory                OAS-RA-11-15     2011-08-25
    Environmental Management Activities
    Funded by the Recovery Act
14. The Department of Energy’s Weatherization     OAS-RA-11-13     2011-08-26
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Indiana
15. The Advanced Research Projects Agency –       OAS-RA-11-11     2011-08-22
    Energy
16. The Department of Energy’s Weatherization     OAS-RA-11-12     2011-08-22
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Missouri
17. The Department of Energy’s American           OAS-RA-11-10     2011-07-28
    Recovery and Reinvestment Act – California
    State Energy Program
18. Department of Energy’s Controls over          OAS-RA-L-11-10   2011-07-21
    Recovery Act Spending at the Idaho National
    Laboratory
18. Performance of Recovery Act funds at the      OAS-RA-L-11-09   2011-07-07
    Waste Isolation Pilot Plant
20. The Department of Energy’s Weatherization     OAS-RA-11-09     2011-06-13
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of West Virginia
21. The Department of Energy’s Weatherization     OAS-RA-11-07     2011-06-06
    Assistance Program Funded under the
    American Recovery and Reinvestment Act
    for the State of Wisconsin
22. Use of American Recovery and Reinvestment     OAS-RA-L-11-08   2011-05-19
    Act of 2009 Funds on Solid Waste Project
    Activities at the Department of Energy’s
    Hanford Site
23. Management Alert on Planned Actions           OAS-RA-11-08     2011-04-22
    Related to the National Energy Technology
    Laboratory’s Simulation-Based Engineering
    User Center
24. The Department of Energy’s American           OAS-RA-L-11-07   2011-04-15
    Recovery and Reinvestment Act – New
    Jersey State Energy Program



                                            8
                                                                           Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports
25. Department’s Management of Cloud             OAS-RA-L-11-06   2011-04-01
    Computing Services
26. The Department of Energy’s Geothermal        OAS-RA-11-05     2011-03-22
    Technologies Program under the American
    Recovery and Reinvestment Act
27. The Department of Energy’s American          OAS-RA-11-06     2011-03-22
    Recovery and Reinvestment Act –
    Massachusetts State Energy Program
28. Recovery Act Funded Projects at the SLAC     OAS-RA-L-11-05   2011-03-08
    National Accelerator Laboratory
29. The Department of Energy's Loan Guarantee    IG-0849          2011-03-03
    Program for Clean Energy Technologies
30. The Department's Infrastructure              OAS-RA-L-11-04   2011-03-02
    Modernization Projects under the American
    Recovery and Reinvestment Act of 2009
31. Management of the Tank Farm Recovery Act     OAS-RA-L-11-03   2011-02-09
    Infrastructure Upgrades Project
32. The Department of Energy's Weatherization    OAS-RA-11-04     2011-02-01
    Assistance Program under the American
    Recovery and Reinvestment Act for the
    Capital Area Community Action Agency –
    Agreed-Upon Procedures
33. Audit of Environmental Cleanup Projects      OAS-RA-L-11-02   2010-12-20
    Funded by the Recovery Act at the Y-12
    National Security Complex
34. Management Alert on the State Energy         INV-RA-11-01     2010-12-03
    Efficient Appliance Rebate Program
35. The Department of Energy's Weatherization    OAS-RA-11-03     2010-11-30
    Assistance Program under the American
    Recovery and Reinvestment Act for the City
    of Phoenix – Agreed-Upon Procedures
36. Management of the Plutonium Finishing        OAS-RA-L-11-01   2010-11-10
    Plant Closure Project
37. Selected Aspects of the Commonwealth of      OAS-RA-11-02     2010-11-02
    Pennsylvania's Efforts to Implement the
    American Recovery and Reinvestment Act
    Weatherization Assistance Program
38. The State of Illinois Weatherization         OAS-RA-11-01     2010-10-14
    Assistance Program
39. Management Controls over the Department of   OAS-RA-10-18     2010-09-29
    Energy's American Recovery and
    Reinvestment Act – Michigan State Energy
    Program
40. Review of Allegations Regarding Hiring and   OAS-SR-10-04     2010-09-22
    Contracting in the Office of Energy
    Efficiency and Renewable Energy

                                          9
                                                                             Attachment
                    Department of Energy Office of Inspector General
                                 Recovery Act Reports
41. Status Report: The Department of Energy's      OAS-RA-10-17     2010-09-21
    State Energy Program Formula Grants
    Awarded under the American Recovery and
    Reinvestment Act
42. The Department of Energy's American            OAS-RA-L-10-06   2010-09-15
    Recovery and Reinvestment Act - Georgia
    State Energy Program
43. Office of Science's Energy Frontier Research   OAS-RA-L-10-09   2010-08-27
    Centers
44. Decommissioning and Demolition Activities      OAS-RA-L-10-05   2010-08-12
    at Office of Science Sites
45. The Department of Energy's Implementation      OAS-RA-10-16     2010-08-11
    of the Energy Efficiency and Conservation
    Block Grant Program under the Recovery and
    Reinvestment Act: A Status Report
46. Review of the Department's of Energy's Plan    OAS-RA-10-15     2010-08-04
    for Obligating Remaining Recovery Act
    Contract and Grant Funding
47. Management Controls over the Development       OAS-RA-10-14     2010-07-22
    and Implementation of the Office of Energy
    Efficiency and Renewable Energy's
    Performance and Accountability for Grants in
    Energy System
48. The Department of Energy's Use of the          OAS-RA-10-13     2010-06-11
    Weatherization Assistance Program Formula
    for Allocating Funds Under the American
    Recovery and Reinvestment Act
49. The Department of Energy's American            OAS-RA-10-12     2010-06-07
    Recovery and Reinvestment Act-Florida State
    Energy Program
50. Management Controls over the                   OAS-RA-10-11     2010-05-26
    Commonwealth of Virginia's Efforts to
    Implement the American Recovery and
    Reinvestment Act Weatherization Assistance
    Program
51. Waste Processing and Recovery Act              OAS-RA-10-10     2010-05-25
    Acceleration Efforts for Contact-Handled
    Transuranic Waste at the Hanford Site
52. Management Controls over the Department of     OAS-RA-10-09     2010-05-03
    Energy's American Recovery and
    Reinvestment Act-Louisiana State Energy
    Program




                                            10
                                                                             Attachment
                    Department of Energy Office of Inspector General
                                 Recovery Act Reports
53. Progress in Implementing the Advanced          OAS-RA-L-10-04   2010-04-27
    Batteries and Hybrid Components Program
    under the American Recovery and
    Reinvestment Act
54. The Department of Energy's Program to          OAS-RA-10-08     2010-04-27
    Assist Federal Buyers in the Purchasing of
    Energy Efficient Products
55. Moab Mill Tailings Cleanup Project             OAS-RA-L-10-03   2010-04-23
56. Fermi National Accelerator Laboratory's        OAS-RA-L-10-02   2010-04-16
    NOvA Project
57. Management Alert on Environmental              OAS-RA-10-07     2010-04-09
    Management's Select Strategy for Disposition
    of Savannah River Site Depleted Uranium
    Oxides
58. The Department of Energy's Management of       OAS-RA-L-10-01   2010-04-06
    the NSLS-II Project
59. Accounting and Reporting for the American      OAS-RA-10-06     2010-04-01
    Recovery and Reinvestment Act by the
    Department of Energy's Funding Recipients
60. Management Controls over the Department's      OAS-RA-10-05     2010-03-25
    WinSAGA System for Energy Grants
    Management Under the Recovery Act
61. Progress in Implementing the Department of     OAS-RA-10-04     2010-02-19
    Energy's Weatherization Assistance Program
    Under the American Recovery and
    Reinvestment Act
62. Review of Allegations Involving Potential      S09IS024         2009-12-29
    Misconduct by a Senior Office of
    Environmental Management Official
63. Management Challenges at the Department of     IG-0832          2009-12-11
    Energy
64. Selected Department of Energy Program          OAS-RA-10-03     2009-12-07
    Efforts to Implement the American Recovery
    and Reinvestment Act
65. Management Alert on the Department's           OAS-RA-10-02     2009-12-03
    Monitoring of the Weatherization Assistance
    Program in the State of Illinois
66. The Department of Energy's Quality             OAS-RA-10-01     2009-10-21
    Assurance Process for Prime Recipients'
    Reporting for the American Recovery and
    Reinvestment Act of 2009
67. Department of Energy's Efforts to Meet         OAS-RA-09-04     2009-09-04
    Accountability and Performance Reporting
    Objectives of the American Recovery and
    Reinvestment Act


                                            11
                                                                           Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports
68. Department of Energy Efforts to Manage       OAS-RA-09-03     2009-05-27
    Information Technology Resources in an
    Energy-Efficient and Environmentally
    Responsible Manner
69. The Department of Energy's Acquisition       IG-RA-09-02      2009-03-30
    Workforce and its Impact on Implementation
    of the American Recovery and Reinvestment
    Act of 2009
70 The American Recovery and Reinvestment        OAS-RA-09-01     2009-03-20
    Act at the Department of Energy




                                           12
